Highlights
Table of Contents




                    Toledo, OH,
                    Processing and
                    Distribution
                    Center Mail
Findings




                    Consolidation
Recommendations




                    Audit Report
                    Report Number
                    NO-AR-14-009

                    August 28, 2014
Appendices




                                      Print
Highlights
Table of Contents




                    Highlights                                Background                                                        at both receiving plants, delayed mail decreased at the
                                                                                                                                Michigan Metroplex P&DC but increased at the Columbus
                                                              The U.S. Postal Service uses Area Mail Processing (AMP)
                                                                                                                                P&DC, and service scores initially decreased at both plants but
                                                              guidelines to consolidate mail processing functions, eliminate
                                                                                                                                have begun to rebound. Also, no career employees were laid
                                                              excess capacity, increase efficiency, and better use resources.
                                                                                                                                off. The consolidations did have a negative impact on carriers,
                                                              Consolidations provide opportunities for the Postal Service to    with about 28 percent more carriers returning after 5 p.m. This
Findings




                                                              operate as a leaner, more efficient organization.                 resulted in customers receiving their mail later, as well as an
                                                                                                                                increased risk to carriers’ safety.
                          A business case existed to          This report responds to a congressional request for review of
                                                              the Toledo, OH, consolidation from Congresswoman Marcy            While the Postal Service generally followed AMP guidelines,
                       support consolidating Toledo           Kaptur, who represents the 9th Congressional District of Ohio.    the AMP worksheets had errors because maintenance and
                          P&DC mail operations into           Our objectives were to determine whether a business case          transportation costs were underestimated.
                                                              existed for consolidating mail processing operations from the
                        the Columbus and Michigan             Toledo, OH, Processing and Distribution Center (P&DC) into        What the OIG Recommended
Recommendations




                                                              the Columbus, OH, and Michigan Metroplex P&DCs. We also
                                 Metroplex P&DCs.             assessed compliance with established AMP guidelines.              We recommended the vice president, Network Operations,
                                                                                                                                re-evaluate cost savings to include additional transportation and
                                                                                                                                maintenance costs, update data as necessary, and adjust the
                                                              What the OIG Found
                                                                                                                                AMP proposal based on the post-implementation review. We
                                                              A business case existed to support mail consolidation from        also recommended the vice president re-evaluate staffing and
                                                              the Toledo P&DC into the Columbus and Michigan Metroplex          resources at the Columbus and Michigan Metroplex P&DCs
                                                              P&DCs. The overall cost savings was $9.3 million annually,        to ensure mail is timely processed and available to carriers
                                                              which was about $100,000 more than the Postal Service             for delivery before 5 p.m. and monitor mail processing at the
                                                              estimated. Following the consolidations productivity increased    Columbus P&DC to minimize mail delays.
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                       Print                                    1
Highlights
Table of Contents




                                                              Michigan
                                                                         Michigan Metroplex
Findings




                                                                                Toledo
                                                                                 P&DC
Recommendations




                                                                Ohio




                                                                                              Columbus P&DC   Hover over the circular city markers for more info…
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                   Print                            2
Highlights
                    Transmittal Letter


                                                              August 28, 2014		
Table of Contents




                                                              MEMORANDUM FOR:	           DAVID E. WILLIAMS, JR.
                                                              				                       VICE PRESIDENT, NETWORK OPERATIONS

                                                                                              E-Signed by Robert Batta
                                                                                            VERIFY authenticity with e-Sign



                                                              				
                                                              FROM: 			 Robert J. Batta
                                                              				Deputy Assistant Inspector General
                                                              				       for Mission Operations

                                                              SUBJECT: 			 Draft Audit Report – Toledo, OH, Processing and Distribution
                                                              				Center Mail Consolidation
Findings




                                                              				         (Report Number NO-AR-14-009)

                                                              This report presents the results of our audit of the Toledo, OH, Processing and Distribution
                                                              Center Mail Consolidation (Project Number 14XG003NO000).

                                                              We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                              questions or need additional information, please contact James L. Ballard, director,
Recommendations




                                                              Network Processing and Transportation, or me at 703-248-2100.

                                                              Attachment

                                                              cc:	   Corporate Audit and Response Management
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                     Print                   3
Highlights
                    Table of Contents
                                                              Cover
                                                              Highlights.......................................................................................................1
                                                               Background.................................................................................................1
                                                               What the OIG Found...................................................................................1
                                                               What the OIG Recommended.....................................................................1
Table of Contents




                                                              Transmittal Letter...........................................................................................3
                                                              Findings.........................................................................................................5
                                                               Introduction.................................................................................................5
                                                               Conclusion..................................................................................................6
                                                               Machine Capacity.......................................................................................6
                                                               Customer Service.......................................................................................8
                                                               Employee Impact......................................................................................10
                                                               Productivity...............................................................................................10
                                                               Delayed Mail............................................................................................. 11
Findings




                                                               AMP Guidelines........................................................................................ 11
                                                               Cost Savings.............................................................................................12
                                                               Carrier Impacts.........................................................................................13
                                                              Recommendations......................................................................................14
                                                               Management’s Comments........................................................................14
                                                               Evaluation of Management’s Comments..................................................14
Recommendations




                                                              Appendices..................................................................................................15
                                                               Appendix A: Additional Information...........................................................16
                                                                 Background ...........................................................................................16
                                                                 Objectives, Scope, and Methodology.....................................................19
                                                                 Prior Audit Coverage..............................................................................20
                                                               Appendix B: Management’s Comments....................................................22
                                                              Contact Information.....................................................................................25
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                     Print                         4
Highlights
                    Findings                                  Introduction
                                                              This report presents the results of our audit of the Toledo, OH, Processing and Distribution Center (P&DC) mail consolidation
                                                              (Project Number 14XG003NO000). This report responds to a congressional request for review of the consolidation. Our objectives
                                                              were to determine whether a business case existed for consolidating mail processing operations from the Toledo, OH, P&DC
                                                              into the Columbus, OH, and Michigan Metroplex P&DCs and assess compliance with established Area Mail Processing (AMP)
                                                              guidelines. The consolidation consisted of two phases: consolidating mail operations from the Toledo P&DC into the Columbus
                       Following the consolidations,          and Michigan Metroplex P&DCs and then into the Detroit P&DC.
Table of Contents




                       productivity increased at both         The Postal Service completed the Toledo P&DC originating1 and destinating2 mail consolidation into the Columbus P&DC and the
                                                              originating mail consolidation into the Michigan Metroplex P&DC in July 2013. On January 24, 2014, the Postal Service announced
                        the receiving plants, delayed
                                                              it would postpone remaining mail processing consolidations and halted consolidation of Toledo P&DC destinating mail into the
                      mail decreased at the Michigan          Detroit P&DC.3 On July 1, 2014, the Postal Service announced it would resume consolidations, including consolidation of Toledo’s
                                                              destinating mail into the Detroit P&DC, beginning in January 2015. See Appendix A for additional information about this audit.
                    Metroplex P&DC but increased at
                                                              The Postal Service developed a formal process for reviewing and implementing AMP proposals, which is defined in Handbook
                    the Columbus P&DC, and service PO-408.4 The Postal Service uses the AMP process to determine whether to consolidate from one or more postal facilities into
                    scores initially decreased at both others to:
                              plants but have begun           ■■ Increase operational efficiency and improve productivity through more efficient use of assets, such as equipment, facilities,
                                                                 staffing, and transportation.
                                        to rebound.
Findings




                                                              ■■ Provide affected career employees with opportunities for job reassignments.

                                                              ■■ Provide Postal Service customers with the same high-quality service they expect.

                                                              ■■ Ensure overall cost reductions.
Recommendations
Appendices




                                                              1	 Originating mail is outgoing and local mail that enters the mailstream (the point of origin) for mail processing and delivery.
                                                              2	 Destinating mail is incoming mail arriving for its point of final delivery (destination) through a processing facility.
                                                              3	 The Postal Service announced postponement of Phase II of the Network Realignment in the Federal Register, Vol. 79, No. 16/Friday, January 24, 2014, Rules and
                                                                 Regulations. Management considers consolidation of the Toledo P&DC incomplete until Phase II is complete.
                                                              4	 Handbook PO-408, Area Mail Processing Guidelines, March 2008. An AMP feasibility study determines whether there is a business case for relocating processing and
                                                                 distribution operations from one location to another.
                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                                                 Print                                              5
Highlights                                                    Conclusion
                                                              A business case existed to support consolidating Toledo P&DC mail operations into the Columbus and Michigan Metroplex
                                                              P&DCs. The Postal Service’s overall cost savings was $9.3 million annually, which was about $100,0005 more than it estimated.
                                                              Following the consolidations we found productivity increased at both receiving plants, delayed mail decreased at the Michigan
                                                              Metroplex P&DC but increased at the Columbus P&DC, and service scores initially decreased at both plants but have begun to
                                                              rebound. In addition, no career employees were laid off as a result of the consolidations. We also determined that about
                                                              28 percent more carriers were returning after 5 p.m. than prior to the consolidation. This resulted in customers receiving their mail
                                                              later as well as an increased risk to carriers’ safety.
Table of Contents




                                                              While the Postal Service generally followed AMP guidelines, there were errors in the AMP worksheets and extra trip expenses
                                                              were not included in the transportation calculations.

                                                              Machine Capacity
                                                              Adequate machine capacity exists at the Columbus and Michigan Metroplex P&DCs to process mail from the Toledo P&DC.
                                                              Specifically, the Columbus P&DC had overall annualized excess capacity of 30 percent (689 million mailpieces) after it started
                                                              processing mail from the Toledo P&DC. Similarly, the Michigan Metroplex P&DC had overall annualized excess capacity of
                                                              47 percent (1.4 billion mailpieces) after the consolidation (see Tables 1 and 2). In addition, both plants had adequate floor space to
                                                              accommodate the additional equipment needed to process the Toledo P&DC’s mail volume.
Findings
Recommendations
Appendices




                                                              5	 The U.S. Postal Service Office of Inspector General (OIG) calculated the difference between savings as follows: OIG-Calculated Savings – AMP Proposed Savings =
                                                                 Difference. 1. Columbus to Toledo Savings: ($3,926,007 - $3,663,289 = $262,718). 2. Columbus to Michigan Metroplex Savings: ($5,461,115 - $5,624,937 = $-163,822).
                                                                 3. We took the difference between the totals: ($262,718 – $163,823 = $98,895).



                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                                                 Print                                                6
Highlights                                                    Table 1. Columbus P&DC Equipment Excess Capacity
                                                                                                                                                       Mailpieces
                                                                                               Number of                 Maximum             Mail Volume**                  Excess Capacity
                                                                    Equipment                  Machines                  Capacity*
                                                              Automated Facer                          8                254,150,400             126,809,512             127,340,888               50%
                                                              Canceller System
                                                              Automated Flats                          4                125,550,000              82,102,818              43,447,182               35%
                                                              Sorting Machine
Table of Contents




                                                              Automated Parcel                         1                 11,973,704              10,392,959              1,580,744                13%
                                                              and Bundle Sorter
                                                              Automated Package                        1                 22,932,405              16,679,291               6,253,114               27%
                                                              Processing System
                                                              Delivery Bar Code                       38               1,484,280,000          1,237,261,205             247,018,795               17%
                                                              Sorter
                                                              Delivery Input                          11                644,490,000             381,065,683             263,424,317               41%
                                                              Output Sub-System
                                                              Total***                                63               2,543,376,509         1,854,311,469             689,065,040             30%****
                                                              Source: Enterprise Data Warehouse (EDW) and Web End-of-Run (WebEOR).
                                                              *Machine capacity is based on the type and class of mail processed during the operating window that would allow the Postal Service to meet
                                                               service standards.
                                                              **Mail volume was calculated using data from January 8, 2013 – January 9, 2014.
Findings




                                                              ***Totals may not add exactly due to rounding.
                                                              *****This 30% reflects the average of excess capacity.



                                                              Table 2. Michigan Metroplex P&DC Equipment Excess Capacity

                                                                                                                                                       Mailpieces
                                                                                              Number of                 Maximum              Mail Volume**                    Excess Capacity
                                                                    Equipment                 Machines                  Capacity*
Recommendations




                                                              Automated Facer                        17                 540,069,600             215,632,598               324,437,002                60%
                                                              Canceller System
                                                              Automated Flats                         5                 156,937,500               98,760,259                58,177,241               37%
                                                              Sorting Machine
                                                              Automated Package                       2                  23,947,407               12,499,687                 11,447,720              48%
                                                              Processing System
                                                              Delivery Bar Code                      65                2,285,010,000          1,578,865,977                706,144,023               31%
                                                              Sorter
                                                              Delivery Input                          9                 527,310,000              218,427,513               308,882,487               59%
                                                              Output Sub-System
                                                              Total***                               98                3,533,274,507            2,124,186,033            1,409,088,474            47%****
                                                              Source: EDW and WebEOR.
Appendices




                                                              *Machine capacity is based on the type and class of mail processed during the operating window that would allow the Postal Service to meet
                                                               service standards.
                                                              **Mail volume was calculated using data from January 8, 2013 – January 9, 2014.
                                                              ***Totals may not add exactly due to rounding.
                                                              *****This 47% reflects the average of excess capacity.

                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                                                                 Print      7
Highlights                                                    Customer Service
                                                              Customer service performance, as measured by the External First-Class Measurement system6 (EXFC), declined after
                                                              consolidation of the Toledo P&DC’s mail into the Columbus and Michigan Metroplex P&DCs. Forty of 54 (76 percent) monthly
                                                              indicators in Overnight, 2-Day, and 3-Day service declined during the 6 months following the consolidation when compared to
                                                              the same period last year (Table 3). Management stated the decline in service scores was not a result of the AMP but, mainly,
                                                              the result of an unusually harsh winter. We examined service scores for April 2014 and determined they began to rebound in all
                                                              categories, except the Toledo P&DC’s overnight mail, supporting management’s claim.7
Table of Contents




                                                              Table 3. Toledo, Columbus, and Michigan Metroplex EXFC Scores

                                                                                                                        Pre-AMP*                                                                             Post-AMP**
                                                               EXFC
                                                                              P&DC         Jan-13    Feb-13     Mar-13      Apr-13    May-13     Jun-13     Jul-13                Aug-13   Sep-13   Oct-13    Nov-13      Dec-13   Jan-14   Apr-14
                                                               STANDARD
                                                                              Toledo       98.46     98.43      96.09       96.34     90.46      97.73                            95.45    92.70    99.20     90.48       87.60    97.36    94.92
                                                                              Columbus     96.94     95.70      97.44       97.20     97.73      97.10                            96.21    96.29    95.67     96.09       91.38    95.17    95.56
                                                               Overnight
                                                                              Michigan




                                                                                                                                                              AMP CONSOLIDATION
                                                                                           97.00     95.34      97.90       96.50     96.45      96.96                            95.89    95.53    96.94     94.31       92.02    92.15    95.99
                                                                              Metroplex
                                                                              Toledo       98.17     95.32      93.93       95.20     93.80      95.01                            92.88    91.91    95.19     93.11       94.56    92.19    97.85
                                                                              Columbus     94.61     95.16      95.52       96.30     95.50      96.55                            94.31    94.71    94.12     94.27       91.72    92.02    95.80
                                                               2-Day 
                                                                              Michigan
                                                                                           95.55     95.98      95.95       96.54     97.08      97.75                            97.04    97.02    97.11     95.70       95.63    92.22    95.96
                                                                              Metroplex
                                                                              Toledo       88.96     90.81      91.72       92.87     93.51      92.56                            92.15    88.97    90.17     89.65       73.46    84.00    90.03
Findings




                                                                              Columbus     93.47     92.92      93.78       92.54     91.72      95.18                            94.72    94.39    92.54     92.44       77.54    83.00    91.65
                                                               3-Day 
                                                                              Michigan
                                                                                           88.50     90.67      90.45       89.48     91.72      93.24                            93.85    91.64    90.16     91.19       75.58    73.64    81.49
                                                                              Metroplex
                                                               Source: EDW.
                                                               Note: Green numbers show an improvement in service scores compared to the months before the consolidation, while the red numbers indicate a decline.
                                                               *January – June 2013.
                                                               **August 2013 – January 2014.


                                                              The consolidation, however, did result in net service upgrades that improve customer service by requiring that mail arrive at the
Recommendations




                                                              destinating facility sooner for delivery. Specifically, the consolidation resulted in 54 net service upgrades, with 33 upgrades from
                                                              the Toledo P&DC’s consolidation into the Columbus P&DC and 21 from the Toledo P&DC’s consolidation into the
                                                              Michigan Metroplex P&DC (see Tables 4 and 5).
Appendices




                                                              6	 Test an independent contractor performs to measure service performance for First-Class Mail (letters, flats, and postcards) from mail collection to final delivery.
                                                              7	 The OIG will continue to monitor service scores for improvement through its risk models.
                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                                                                        Print                                        8
Highlights                                                    Table 4. Toledo to Columbus Service Standard Impacts

                                                                                                    Service Standard Changes
                                                                 Mail Class                           3-Digit ZIP Code Pairs1
                                                                                        Upgrades            Downgrades               Net Change
                                                              First-Class Mail                 0                    0                        0
                                                              Priority Mail                    0                    0                        0
                                                              Periodicals                     31                    14                       17
Table of Contents




                                                              Standard Mail                   12                     0                       12
                                                              Packages                         4                     0                        4
                                                              Total                           47                    14                       33
                                                              Source: Service Standard Directory.
                                                              1 A service standard pair is the service standard between one 3-digit origin ZIP Code and
                                                              one 3-digit destination ZIP Code.


                                                              Table 5. Toledo to Michigan Metroplex Service Standard Impacts

                                                                                                    Service Standard Changes
                                                                 Mail Class                           3-Digit ZIP Code Pairs
                                                                                        Upgrade           Downgrade               Net Change
                                                              First-Class Mail               18                  9                        9
Findings




                                                              Priority Mail                   0                  0                        0
                                                              Periodicals                    18                  9                        9
                                                              Standard Mail                   3                  0                        3
                                                              Packages                        0                  0                        0
                                                              Total                          39                  18                       21
                                                              Source: Service Standard Directory.
Recommendations
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                          Print   9
Highlights                                                    Employee Impact
                                                              Consolidating the Toledo P&DC into the Columbus and Michigan Metroplex P&DCs did not result in any career employees being
                                                              laid off. As of February 2014, the Toledo P&DC eliminated 100 craft and nine Executive and Administrative Schedule (EAS)
                                                              employee positions (see Table 6). Management offered voluntary early retirement and buyout incentives in conjunction with the
                                                              Network Realignment Initiative to reduce workhours.

                                                              Table 6. Employee Impact
Table of Contents




                                                                                                                              Number of
                                                               How Reduction was Accomplished                                 Employees
                                                               Reassigned (all voluntary – no relocation                                   47
                                                               costs incurred)
                                                               Resigned                                                                    5
                                                               Removed (disciplinary reasons)                                              2
                                                               Retired                                                                    45
                                                               Voluntary transfer to another agency                                        1
                                                               Total                                                                     100
                                                               Source: OIG and Postal Service analysis.



                                                              Productivity
Findings




                                                              Combined facility First-Handling Piece (FHP)8 productivity9 for the Toledo, Columbus, and Michigan Metroplex P&DCs increased
                                                              after the consolidations. The AMP projected an increase of combined FHP productivity of 3.4 percent for the Columbus P&DC and
                                                              3.1 percent for the Michigan Metroplex P&DC; however, compared to 6 months prior to the consolidation, productivity increased
                                                              6 percent for the Columbus P&DC and 7 percent for the Michigan Metroplex P&DC (see Table 7).

                                                              Table 7. Productivity Impact
Recommendations




                                                               Facility                        *Pre-AMP **Post-AMP Percentage Change
                                                               Toledo                            1,226           1,130                      -8%
                                                               Michigan Metroplex                1,286           1,371                       7%
                                                               Columbus                          1,124           1,193                       6%
                                                               Source: EDW.
                                                               *January – June 2013.
                                                               **August 2013 – January 2014.
Appendices




                                                              8	 A letter, flat, or parcel that receives its initial distribution at a Postal Service facility.
                                                              9	 Productivity is calculated by dividing mailpieces by workhours. This number is useful when evaluating overall efficiency.
                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                                                       Print   10
Highlights                                                    Delayed Mail
                                                              Following consolidation of mail operations, delayed mail10 decreased at the Toledo and Michigan Metroplex P&DCs and increased
                                                              at the Columbus P&DC. Specifically, delayed mail at the Toledo P&DC decreased from 0.45 percent to 0.35 percent of FHP
                                                              volume. Similarly, the Michigan Metroplex P&DC had a decrease in delayed mail from 1.79 to 1.47 percent. But the
                                                              Columbus P&DC’s delayed mail increased from 0.20 percent to 1.99 percent, which is slightly higher than its delayed mail average
                                                              of 1.5 percent of FHP volume. Although not yet a problem, management should monitor delayed mail at the Columbus P&DC to
                                                              ensure mail is processed timely and delayed mail is minimal (see Table 8).
Table of Contents




                                                              Table 8. Delayed Mail as a Percentage of FHP Volume

                                                                                                                              Pre-AMP*                                                         Post-AMP**
                                                                           Facility                    Delayed Mailpieces               Percentage Delayed                  Delayed Mailpieces        Percentage Delayed
                                                               Toledo                                           1,293,869                         0.45%                              631,733                0.35%
                                                               Michigan Metroplex                              17,340,527                         1.79%                           18,098,835                1.47%
                                                               Columbus P&DC                                    1,841,558                         0.20%                           21,983,780                1.99%
                                                               Source: EDW and Mail Condition Reporting System.
                                                               *Before Consolidation: January – June 2013.
                                                               **After Consolidation: August 2013 – January 2014.



                                                              AMP Guidelines
Findings




                                                              The Postal Service generally complied with stakeholder communication policies when conducting the AMP study and generally
                                                              followed AMP guidelines. However, it did not complete some of the AMP study steps within established timeframes and the AMP
                                                              worksheets contained population and data entry errors.

                                                              We found population and data entry errors in the AMP electronic worksheets for the maintenance and transportation categories.
                                                              These errors totaled about $3.9 million ($620,310 for the Columbus P&DC and $3,341,176 for the Michigan Metroplex P&DC).
                                                              See Table 9 and Table 10 for additional details. Management stated they missed these errors in the review process. During the
Recommendations




                                                              audit, we worked with management to determine the correct calculations for the current and proposed costs on the maintenance
                                                              and transportation worksheets.

                                                              Accurate and complete AMP data are important for supporting management decisions, ensuring management accountability, and
                                                              strengthening stakeholder confidence in the consolidation process. On the other hand, inaccurate data on AMP worksheets can
                                                              affect the business case for the consolidation. In this case, inaccurate data for the Toledo P&DC consolidation did not significantly
                                                              impact the proposed savings and, therefore, would not have altered the business case for the AMP consolidation. However, the
                                                              Postal Service should correct these errors during the post-implementation review (PIR).
Appendices




                                                              10	 The Postal Service considers mail delayed when it is not dispatched in time to meet its established delivery day.
                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                                                      Print                                11
Highlights                                                    Table 9. Toledo to Columbus Worksheet Errors

                                                                                         AMP Projected       OIG-Corrected
                                                                      Category           Savings/(Cost)          AMP           Difference
                                                              Transportation Savings**          $1,153,406       $1,206,295       $52,889
                                                              Maintenance Savings**                915,288          242,089      (673,199)
                                                              Total                            $2,068,694        $1,448,384    ($620,310)

                                                              Table 10. Toledo to Michigan Metroplex Worksheet Errors
Table of Contents




                                                                                         AMP Projected       OIG-Corrected
                                                              Category                   Savings/(Cost)          AMP           Difference
                                                              Transportation Savings**        $3,830,024        $1,270,534 ($2,559,490)
                                                              Maintenance Savings**              570,217         (211,469)    (781,686)
                                                              Total                           $4,400,241        $1,059,065 ($3,341,176)

                                                              Cost Savings
                                                              The Postal Service estimated cost savings from the Toledo P&DC mail consolidation to the Columbus and Michigan Metroplex
                                                              P&DCs to be $3,663,289 and $5,624,937, respectively, in the first year. However, the overall annual cost savings were $3,926,607
                                                              from the Columbus P&DC consolidation and $5,461,115 from the Michigan Metroplex P&DC consolidation, which was about
Findings




                                                              $100,000 more than estimated. The difference in the Postal Service and OIG estimates occurred for several reasons:

                                                              ■■ Workhour savings were significantly higher than projected in the AMP. This was because the Postal Service offered voluntary
                                                                 early retirements and fewer employees moved to the Columbus and Michigan Metroplex P&DCs than the AMP proposed.

                                                              ■■ EAS workhour savings were lower than projected in the AMP because the Toledo P&DC did not close as planned in the
                                                                 AMP package.
Recommendations




                                                              ■■ Maintenance savings were underestimated due to errors in the current and proposed maintenance worksheets.

                                                              ■■ Transportation costs were underestimated due to errors in the current and proposed worksheets; and the AMP did not include
                                                                 all costs associated with increases in fuel, wages, mileage, overtime, and extra trips.
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                      Print                                    12
Highlights                                                    Carrier Impacts
                                                              Consolidation of Toledo P&DC outgoing mail volume negatively impacted carrier operations. Specifically, mail was not processed
                                                              for timely arrival at delivery stations; therefore, the percentage of Toledo carriers on the street after 5 p.m. increased by
                                                              approximately 28 percent from carriers on the street after 5 p.m. prior to the consolidation.

                                                              For instance, before the consolidation, 2 percent of carriers in three digit ZIP Codes 434–436 and 18 percent of carriers in
                                                              ZIP Code area 458 were delivering mail after 5 p.m. After the consolidation, the percentage of carriers delivering mail after 5 p.m.
                                                              increased to 21 and 45 percent, respectively, for those ZIP Code areas (see Table 11).
Table of Contents




                                                              Table 11. Percentage of Carriers Returning After 5 p.m.11

                                                               Toledo 3-Digit Zip Code Pre-Consolidation January Post-Consolidation August Percentage
                                                               Areas                   2013 - June 2013          2013 - January 2014       Change
                                                               434-436                             18,545                                   22,455       21.08%
                                                               458                                 7,427                                    10,799       45.40%
                                                               Overall                             25,972                                   33,254       28.40%
                                                               Source: EDW.


                                                              This increase occurred because the Postal Service adjusted carrier start times to accommodate mail arriving later at delivery units.
                                                              As a result, carriers were finishing their routes later and customers were receiving their mail later, sometimes after dark.
Findings
Recommendations
Appendices




                                                              11	 The figures represent the number of instances when a carrier returned after 5 p.m.



                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                          Print                                  13
Highlights
                    Recommendations                           We recommend the vice president, Network Operations:

                                                              1.	 Re-evaluate cost savings to include additional transportation costs and update data as necessary and adjust the Area Mail
                                                                  Processing proposal based on the post-implementation review.

                                                              2.	 Re-evaluate staffing and resources at the Columbus and Michigan Metroplex processing and distribution centers to ensure mail
                                                                  is processed on time and available to carriers for delivery before 5 p.m.

                                We recommend the              3.	 Monitor mail processing at the Columbus Processing and Distribution Center to minimize mail delays.
Table of Contents




                      Postal Service re-evaluate cost
                                                              Management’s Comments
                      savings and make adjustments
                                                              Management agreed with our findings and recommendations.
                         to the AMP proposal based
                                                              Regarding recommendation 1, management expects to complete the final portion of the Toledo P&DC AMP by the fall mail season
                         on the post-implementation           of 2014. The period for the first PIR for the Toledo P&DC will begin immediately after implementation. The target completion date is
                                                              May 31, 2016.
                         review; re-evaluate staffing
                                                              Regarding recommendation 2, management will review resources at the Columbus and Michigan Metroplex P&DCs and take
                           and resources at both the
                                                              appropriate steps to ensure mail is processed on time and made available to delivery operations to facilitate the earlier return of
                    receiving plants to ensure timely         carriers. The target completion date is September 30, 2014.
Findings




                            processing; and monitor           Regarding recommendation 3, management will monitor mail conditions at the Columbus P&DC daily and take immediate action,
                                                              as necessary. The target completion date is September 30, 2014.
                              mail processing at the
                                  Columbus P&DC.              See Appendix B for management’s comments, in their entirety.

                                                              Evaluation of Management’s Comments
Recommendations




                                                              The OIG considers management’s comments responsive to the recommendations in the report.

                                                              The OIG considers recommendations 1 and 2 significant, and therefore requires OIG concurrence before closure. Consequently,
                                                              the OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                              Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                          Print                                     14
Highlights
                    Appendices

                                                              Appendix A: Additional Information..............................................................16
                                                               Background ..............................................................................................16
                                                               Objectives, Scope, and Methodology.......................................................19
                           Click on the appendix title         Prior Audit Coverage.................................................................................20
Table of Contents




                           to the right to navigate to        Appendix B: Management’s Comments......................................................22
                                the section content.
Findings
Recommendations
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                 Print                       15
Highlights          Appendix A:                               Background
                    Additional Information                    The Postal Service ended FY 2013 with a net loss of $5 billion, marking the seventh consecutive year in which the Postal Service
                                                              incurred a net loss. The requirement to prefund its retiree health benefit obligations and the continuous drop in First-Class Mail®
                                                              volume have been major factors contributing to the Postal Service’s losses.

                                                              In April 2013, the Postal Service released its updated comprehensive Business Plan, which detailed plans to eliminate nearly
                                                              $20 billion in annual costs by 2017. The Postal Service stated that it will continue to aggressively pursue the strategies within
                                                              its control to increase operational efficiency and to improve its liquidity position. As part of the Business Plan, the Postal Service
Table of Contents




                                                              expects to save nearly $6 billion annually by consolidating mail processing, retail, and delivery networks.12 The Postal Service
                                                              stated that network consolidations are necessary to better align its network with mail volume and workhours.

                                                              The Postal Service uses AMP guidelines13 to consolidate mail processing functions and eliminate excess capacity, increase
                                                              efficiency, and better use resources. Consolidations provide opportunities for the Postal Service to reduce costs, improve service,
                                                              and operate as a leaner, more efficient organization.

                                                              Title 39, U.S.C. Part 1, Chapter 1, §101, states that the Postal Service “. . . shall provide prompt, reliable, and efficient services to
                                                              patrons in all areas . . . .” Further, the September 2005 Postal Service Strategic Transformation Plan states, “The Postal Service
                                                              will continue to provide timely, reliable delivery to every address at reasonable rates.” The Postal and Accountability Enhancement
                                                              Act of 2006 highlights “. . . the need for the Postal Service to increase its efficiency and reduce its costs, including infrastructure
                                                              costs, to help maintain high quality, affordable postal services . . . .”
Findings




                                                              This audit responds to a request from Congresswoman Marcy Kaptur, who represents the 9th Congressional District of Ohio, to
                                                              review the consolidation of mail processing operations from the Toledo, OH, P&DC to the Columbus, OH, and Michigan Metroplex
                                                              P&DCs. The representative’s concerns include the omission of second handling pieces and equipment relocation costs; inaccurate
                                                              labor and transportation costs; and invalid customer service, efficiency, and cost impacts.
Recommendations
Appendices




                                                              12	 On January 24, 2014, the Postal Service announced that it is postponing the implementation date for service standard changes that would have enabled the consolidation
                                                                  of many mail processing facilities. On July 1, 2014, the Postal Service announced it would resume consolidations, including consolidation of Toledo’s destinating mail into
                                                                  the Detroit P&DC, beginning in January 2015.
                                                              13	 Handbook PO-408, March 2008.
                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                                                       Print                                              16
Highlights                                                    The Toledo and Columbus P&DCs are about 139 miles apart. The Toledo P&DC is in the Northern Ohio District and the Columbus
                                                              P&DC is in the Cincinnati District, with both districts being in the Eastern Area (see Figure 1).

                                                              Figure 1: Location of Toledo P&DC and Columbus P&DC
Table of Contents




                                                              The Toledo and the Michigan Metroplex P&DCs are about 89 miles apart. The Michigan Metroplex P&DC is in the Detroit District
                                                              of the Great Lakes Area (see Figure 2).
Findings




                                                              Figure 2: Location of Toledo P&DC and Michigan Metroplex P&DC
Recommendations
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                     Print                               17
Highlights                                                    This consolidation moved Toledo’s ZIP Code 458 originating and destinating mail volume to the Columbus P&DC and its ZIP Code
                                                              areas 434–436 originating mail volume to the Michigan Metroplex P&DC. The Postal Service completed the consolidations in
                                                              July 2013 and postponed the proposal to move destinating mail for three-digit ZIP Code areas 434-436 to the Detroit P&DC.

                                                              The Toledo, OH, P&DC AMP proposal was part of the Postal Service’s Network Realignment Initiative and one of 223 AMP
                                                              proposals approved in February 2012.

                                                              Implementation of the Toledo P&DC consolidation began 16 months after headquarters approved it. The delay in implementation
                                                              occurred because of an ongoing moratorium on AMP consolidations between December 2011 and May 2012. Management
Table of Contents




                                                              resumed implementation in two phases, beginning in August 2012. They did not implement the Toledo P&DC consolidation until
                                                              July 2013 and, in January 2014, postponed Phase II of the consolidation, which would have moved Toledo destinating mail into the
                                                              Detroit P&DC. However, on July 1, 2014, the Postal Service announced it would resume consolidations, including consolidation of
                                                              Toledo’s destinating mail into the Detroit P&DC, beginning in January 2015 (see Table 12).

                                                              Table 12. Toledo AMP Implementation Timeline

                                                              Event                                                         Date
                                                              Network Realignment Initiative Announcement                 9/15/2011
                                                              Request for Advisory Opinion Submitted to Postal            12/5/2011
                                                              Regulatory Commission (PRC)
                                                              Moratorium on AMP Consolidations                            12/13/2011
Findings




                                                              Toledo P&DC AMP Approved                                    2/18/2012
                                                              Postal Service Submits Modified Network Realignment         4/30/2012
                                                              Plan to PRC
                                                              Postal Service Announces Consolidations Will Resume         5/17/2012
                                                              Phase I of Implementations Begins                            8/1/2012
                                                              PRC Advisory Opinion                                        9/28/2012
                                                              Toledo 458 Originating/Destinating to Columbus P&DC          7/1/2013
Recommendations




                                                              Toledo 434-436 Originating Mail to Michigan Metroplex        7/1/2013
                                                              P&DC
                                                              Toledo 434-436 Destinating Mail Move to Detroit P&DC        1/24/2014
                                                              – Postponed
                                                              Phase II to Begin February 2014 – Postponed                 1/24/2014
                                                              Postal Service Announces Phase II Will Resume –              7/1/2014
                                                              January 2015
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                      Print                                18
Highlights                                                    Objectives, Scope, and Methodology
                                                              Our objectives were to assess consolidation of originating and destinating mail processing operations from the Toledo P&DC to the
                                                              Columbus P&DC and originating mail processing operations to the Michigan Metroplex P&DC, and compliance with established
                                                              AMP guidelines. We reviewed data from January 2013 through July 2014 to analyze mail trends and productivity at the Toledo,
                                                              Columbus, and Michigan Metroplex P&DCs; and reviewed service scores, conducted observations, and interviewed management.

                                                              We used computer-processed data from the following Postal Service systems:
Table of Contents




                                                              ■■ Customer Experience Measurement.

                                                              ■■ EDW.

                                                              ■■ Intelligent Mail barcodes.

                                                              ■■ Mail Condition Reporting System.

                                                              ■■ Service Standard Directory.

                                                              ■■ Web Complement Information System.

                                                              ■■ WebEOR.
Findings




                                                              We conducted this performance audit from January through August 2014, in accordance with generally accepted government
                                                              auditing standards, and included such tests of internal controls as we considered necessary under the circumstances. Those
                                                              standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
                                                              our findings and conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable basis for
                                                              our findings and conclusions based on our audit objectives. We discussed our observations and conclusions with management on
                                                              June 24, 2014, and included their comments where appropriate.
Recommendations




                                                              We assessed the reliability of computer-generated data by interviewing agency officials knowledgeable about the data. We
                                                              determined that the data were sufficiently reliable for the purposes of this report.
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                       Print                                19
Highlights                                                    Prior Audit Coverage
                                                              Report Title                           Report Number         Final Report Date                               Monetary Impact
                                                              Consolidation of the Huntsville,
                                                              AL, Processing and Distribution        NO-AR-14-005               5/5/2014                                        N/A
                                                              Facility
                                                              Report Results: A business case existed to support the consolidation. Management agreed with our recommendations to continue processing
                                                              Huntsville’s delivery point sequence (DPS) mail at the Huntsville Processing and Distribution Facility (P&DF) and to re-evaluate staffing and
                                                              resources at the Huntsville P&DF to ensure timely processing of DPS mail so fewer carriers return after 5 p.m.
                                                              Altoona, PA, Originating and
Table of Contents




                                                                                                        NO-AR-13-010               9/30/2013                                    $138,839
                                                              Destinating Mail Consolidation
                                                              Report Results: A business case existed to support the consolidation. Management agreed with our recommendation to re-evaluate
                                                              maintenance savings and make adjustments to the AMP proposal in the first PIR.
                                                              New Castle and Greensburg, PA,
                                                                                                        NO-AR-13-004               8/16/2013                                   $978,954
                                                              Consolidation
                                                              Report Results: A business case existed to support the consolidation. Management agreed with our recommendations to coordinate with the
                                                              Facility Service Office when rental space is vacated to ensure appropriate lease termination actions are taken; take action to sublease, buy out,
                                                              or terminate lease agreements for vacated facilities; and ensure Voyager eFleet cards are stored in a secure manner.
                                                              Lessons Learned From
                                                              Mail Processing Network                   NO-MA-13-004               3/27/2013                                      N/A
                                                              Rationalization Initiatives
                                                              Report Results: The Postal Service has improved its mail processing network optimization efforts as a result of lessons learned from current
                                                              and past initiatives; however, further refinements are warranted. The Postal Service could improve communications with stakeholders to
                                                              enhance transparency. Management agreed with the finding and recommendation. Management stated that they will continue striving to ensure
Findings




                                                              that accurate and consistent information is provided to stakeholders, will add further enhancements to AMP information posted on usps.com,
                                                              and will work with all relevant functions within the Postal Service to further ensure the agency shares relevant information with all stakeholders
                                                              on a timely basis.
                                                              Post-Implementation Review
                                                                                                         CI-AR-12-007              9/28/2012                                      N/A
                                                              Process
                                                              Report Results: The PIR process used to evaluate whether AMP consolidations achieve projected savings can be improved. Thirty-four of 35
                                                              final PIRs (97 percent) reported greater than projected savings based on the methodology used; however, impacts from concurrent initiatives
                                                              were included and not identified separately in the PIR. We recommended that management improve the PIR guidelines to separate savings
                                                              and costs associated with concurrent initiatives; implement the use of automated data calculations for PIR worksheets; establish a process
Recommendations




                                                              to allocate savings and costs when multiple losing facilities are consolidated into the same gaining facility; and assess whether current PIR
                                                              milestones to complete PIRs should be adjusted.
                                                              Frederick, MD, to Baltimore,
                                                              MD, Area Mail Processing               NO-AR-12-006                7/3/2012                                     $558,021
                                                              Consolidation
                                                              Report Results: Consolidation of destinating mail processing operations initially resulted in significant delayed mail, declines in service and
                                                              customer experience scores, and increased transportation costs. Management acknowledged there were challenges with the consolidation,
                                                              but had addressed many of the problems experienced during the consolidation and operating conditions had improved. Management agreed
                                                              with the recommendation to avoid implementing consolidations during the fall and holiday peak mailing seasons, as appropriate. Management
                                                              also agreed with the recommendation to ensure customer service commitments are met, but noted operations for sectional center facility 217
                                                              have now stabilized and service levels above national targets are being achieved. Management also stated the Postal Service was paying a
                                                              contractor for services no longer required since the consolidation. They are working to ensure reimbursement of payments for services not
                                                              performed and expect this to be completed by the end of the calendar year.
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                                   Print                                        20
                                                              Report Title                      Report Number       Final Report Date                         Monetary Impact
Highlights
                                                              Oxnard, CA, Processing and
                                                              Distribution Facility Destinating NO-AR-12-004             3/6/2012                                   None
                                                              Mail Consolidation
                                                              Report Results: A business case existed to support the consolidation. Management agreed with our recommendations to monitor
                                                              customer service measurement, 24-hour clock indicators, delayed mail, and staffing levels to ensure mail is processed timely.
                                                              Industry, CA, Processing
                                                              and Distribution Center Mail      NO-AR-12-002            10/17/2011                               $1,321,651
                                                              Consolidation
Table of Contents




                                                              Report Results: A business case existed to consolidate originating mail processing operations from the industry P&DC into the Santa Ana
                                                              P&DC to achieve a cost savings of about $1.32 million annually. We made no recommendations.
                                                              Oshkosh, WI, Processing
                                                              and Distribution Facility         NO-AR-11-006            7/29/2011                                    None
                                                              Consolidation
                                                              Report Results: A business case existed to support the consolidation with the exception of sufficient floor space and machine
                                                              capacity. Management agreed with the recommendations, but disagreed with our analysis of floor space and letter processing
                                                              capacity.
Findings
Recommendations
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                                               Print                                    21
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                              Print   22
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                              Print   23
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                              Print   24
Highlights
Table of Contents
Findings




                                                                 Contact us via our Hotline and FOIA forms, follow us on social
                                                              networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                     or abuse. Stay informed.
Recommendations




                                                                                    1735 North Lynn Street
                                                                                   Arlington, VA 22209-2020
                                                                                         (703) 248-2100
Appendices




                    Toledo, OH, Processing and Distribution
                    Center Mail Consolidation
                    Report Number NO-AR-14-009
                                                                                                                                       Print   25
